OIG Investigative Reports, Houston, TX., April 09, 2014 - More Convictions in Relation to Progreso Bribery Case
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT of TEXAS
NEWS
More Convictions in Relation to Progreso Bribery Case
April 09,2014
HOUSTON – Jose Vela, 65, and his Michael Vela, 30, have entered guilty pleas to conspiracy and bribery concerning programs receiving federal funds, announced United States Attorney Kenneth Magidson. Also pleading guilty today in a separate, but related case was Orlando Vela, 33.
Jose and Michael Vela were originally charged along with Omar Vela and others based on their alleged participation in a scheme to create a “pay to play” public contracting system in Progreso. Today, they admitted they participated in the scheme from 2004 through 2013. Michael, Omar and Orlando are brothers and Jose is their father. Omar is the mayor of Progreso, while Michael was the president of the Progreso Independent School District Board (PISD) of Trustees.
From 2004 through 2013, PISD received more than $1 million per year in federal program grants and funds from the U.S. Department of Education. In order to obtain contracts from PISD or from the City of Progreso, contractors were required to pay bribes to Vela and others.
The Velas were able to extract bribes from contractors as a result of their political control of Progreso and PISD. As government officials, Michael and Omar had a level of control over local government. In addition, Jose Vela controlled the PISD School Board by rewarding board members who voted as he directed with bribe money. Through this control over the PISD Board, Jose Vela caused contracts with PISD to be awarded to contractors who were willing to pay him bribes and kickbacks in return. Omar and Michael Vela assisted their father by gathering bribe payments from contractors and delivering the payments to him. They were then given a portion of those monies.
According to the plea agreement, during the time frame of the conspiracy, the Velas required a local architect, his firm, a construction company and the school board attorney to pay bribes and kickbacks to Vela and others in order to obtain work with PISD or the City of Progreso. In total, Jose, Omar and Michael extracted more than $300,000 in bribe payments.
In a separate, but related case, Orlando Vela entered a guilty plea to a criminal information charging him with theft from a program receiving federal funds. He is employed by PISD as a risk manager. In this role, he is responsible for directing and managing the school district’s risk management, loss control and safety programs. On May 11, 2012, Orlando Vela formed a company called Borderline Office Supplies which purported to be in the business of supplying office and janitorial products to school districts.
Between May 2012 and March 2013, Orlando Vela submitted invoices to PISD for products that Borderline did not actually supply to PISD. The business bank account showed no purchases of the products that it claimed to have resold to PISD. The payments on the fraudulent invoices were approved by PISD’s business manager, Orlando Vela’s wife, and totaled $12,874.42.
On Aug. 12, 2013, Orlando Vela received a subpoena requesting documents related to his business’s alleged purchases of products and subsequent sales to PISD. In response, he provided invoices from a company in Mexico that purported to show that Borderline had purchased the products in Mexico and resold to PISD. However, upon further investigation, agents learned those invoices were in fact fraudulent.
U.S. District Judge David Hittner, who accepted the pleas today, has set sentencing for July 25, 2014. At that time, all face up to 10 years in federal prison for the bribery involving federal programs convictions. Jose and Michael Vela also face up to five years in federal prison for the conspiracy. All convictions also carry as possible punishment a maximum fine of $250,000. All were permitted to remain on bond pending their hearings.
The investigation was conducted by the FBI. Assistant United States Attorney Robert S. Johnson is prosecuting the case.
Top
Printable view
Last Modified: 04/17/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov